No.19-51

INTHE

hprttttt <tlnurt nf tlJt llttiteh &tat.es
BEN BRANCH, et

al.,

Petitioners,

v.

MASSACHUSETTS DEPARTMENT OF LABOR RELATIONS, et

Respondents.

al.,

ON PETITION FOR A WRIT OF CERTIORARI TO THE
SUPREME JUDICIAL COURT OF MASSACHUSETTS

CERTIFICATE OF SERVICE

I, Mark Matuschak, a member of the bar of this Court, hereby certify that, on
this 7th day of August, 2019, all parties required to be served have been served copies
of the Brief for Pioneer Institute as Amicus Curiae Supporting Petitioners in this
matter by overnight courier to the addresses on the attached service list.

~~~
7

MARK MATUSCHAK

Counsel of Record

WILMER CUTLER PICKERING
HALE AND DORR LLP

60 State Street
Boston, MA 02109
(61 7) 526-6000
mark.matuschak@wilmerhale.com

SERVICE LIST

Counsel for Petitioners Ben Branch, et al.
BRUCE N. CAMERON
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC.

8001 Braddock Road, Suite 600
Springfield, VA 22160
(757) 352-4522
bnc@nrtw.org

Counsel for Respondents Massachusetts Society of Professors/MTAJNEA;
Hanover Teachers Association/MTAJNEA; and Professional Staff
Union/MTAJNEA
JEFFREY WILLIAM BURRITT
NATIONAL EDUCATION ASSOCIATION

120116th Street, NW
Washington, DC 20036
(202) 822-7231
jburritt@nea.org

Counsel for Respondents Massachusetts Department of Labor and
Commonwealth Employment Relations Board
TIMOTHY JAMES CASEY
MASSACHUSETTS ATTORNEY GENERAL'S OFFICE

One Ashburton Place
Boston, MA 02108
(617) 963-2043
timothy.casey@mass.gov

